HHS/OIG-Audit--"Florida Department of Health and Rehabilitative Services' Procedures for Coordinating AFDC and SSI Benefits, (A-04-95-00090)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Florida Department of Health and Rehabilitative Services' Procedures for Coordinating AFDC and SSI Benefits," (A-04-95-00090)
October 24, 1995
Complete
Text of Report is available in PDF format (969 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Department of Health and Rehabilitative Services (HRS) and the
Social Security Administration (SSA) are coordinating information to ensure the accuracy of the Aid to Families With Dependent
Children (AFDC) payments.
The HRS needs to improve its coordination of information with SSA to ensure AFDC payment accuracy. The Social Security
Act provides that individuals receiving SSI cannot be included in an AFDC grant. We reviewed a sample of 200 cases where
individuals in the State of Florida received both AFDC and SSI for at least 1 month during the period June 1991 through
September 1993.
From our sample, we determined that:
* 57 individuals were overpaid $17,136 because HRS did not remove individuals from AFDC grants timely. Projecting these
errors to the population, we estimate that 3,509 individuals were overpaid $1,054,806.
* 43 individuals were overpaid $13,250 because HRS did not receive and/or utilize Supplemental Security Income (SSI) information.
Projecting these errors to the population, we estimate that 2,647 individuals were overpaid $815,604.
The HRS did not detect the payment errors identified in our sample in a timely manner because HRS had not properly used
the SSI information provided by SSA. We are making several recommendations to correct the identified payment errors and
to help ensure the integrity of AFDC payments through better coordination of information with SSA.
The HRS generally agreed with our findings and recommendation.